                                           ..                                    '   '


                                                       NATIONAL
                                                        OFFICE OF SCIENCE
                                                                  INSPECTOR
                                                                          FOUNDATION
                                                                            GENERAL

       z                                                  OFFICE OF INVESTIGATIONS

       $j@
        4

         o
           .QAI
                                                  CLOSEOUT MEMORANDUM

      Case Number: A06120061                                                                      Page 1 of 1




              The complainant1 received an email from a student that asks about procedures used in her
              research, specifically as described in the complainant's published papers. Since the student is at
              the same university as a self-identified reviewer2 of her declined NSF proposal3 , and the
              reviewer asked for copies of the published papers during the review process, the complainant is
              concerned that the student now aims to carry out research that the complainant proposed. The
              complainant therefore makes a claim of intellectual property theft.

              The student's questions are related specifically to the complainant's published paper, and make
              no reference to the complainant's proposal. The complainant admits that all elements of her
              proposed work are openly known and openly available, and that the approach described in her
              proposal would be obvious and apparent to anyone knowledgeable in the field. Given these
              facts, we conclude there is no substance to the allegation of intellectual property theft. It is
              reasonable that a research advisor might direct a student to initiate conversations with experts in
              the field of proposed research, and as noted above, the student directs questions towards the
              complainant's publications, not her proposal. We determine that there is no substance to suggest
              violation of proposal review confidentiality.
                                                          \

              Accordingly, this file is closed.

I

I
I




1
I




I              '   Redacted.
                   Redacted.
               3
                   Redacted.
    -~                                            --




I
                                                                                                                    a

     NSF OIG Form 2 (1 1/02)
